Report No. DODIG-2012-113             July 20, 2012




    DEPUTY INSPECTOR GENERAL FOR INTELLIGENCE AND
            SPECIAL PROGRAM ASSESSMENTS


   Assessment of Air Force Global Strike Command
        Organizational Structures, Roles and
                  Responsibilities
Additional Information
The Department of Defense, Office of the Deputy Inspector General for Intelligence and
Special Program Assessments, prepared this report. Questions regarding this report
should be directed to the Office of the Deputy Assistant Inspector General for
Intelligence Audits at (703) 882-4860, or fax (571) 372-7451.

Suggestions for Reviews

To suggest ideas for future reviews, contact the Office of the Deputy Inspector
General for Intelligence and Special Program Assessments by phone at (703) 882-4860,
by fax at (703) 604-8982, or by mail:

                     ODIG-ISPA
                     Department of Defense Inspector General
                     4800 Mark Center Drive, Room 10J25
                     Arlington, VA 22202-4704




Acronyms and Abbreviations
AFB                          Air Force Base
AFGSC                        Air Force Global Strike Command
NAF                          Numbered Air Force
TF                           Task Force
USSTRATCOM                   US Strategic Command
                                       INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                     4800 MARK CENTER DRIVE
                                  ALEXANDRIA, VIRGINIA 22350-1500




MEMORANDUM FOR COMMANDER, UNITED STATES STRATEGIC COMMAND
               COMMANDER, AIR FORCE GLOBAL STRIKE COMMAND

Subject: Assessment of Air Force Global Strike Command - Organizational Structures,
         Roles and Responsibilities (Project No: D2012-DINT02-0104.000)

This report summarizes our review of the command relationships of Air Force Global
Strike Command (AFGSC) and its subordinate organizations. Our objective was to
assess the effectiveness and efficiency of current command relationships. To achieve this
objective, we interviewed US Strategic Command (USSTRATCOM) staff, and leaders at
AFGSC. Additionally, we interviewed leaders assigned to the 8th Air Force (8 AF) and
the 20th Air Force (20 AF) - hereafter referred to as Numbered Air Forces 1 (NAF) - that
report to AFGSC, as well as personnel assigned to two wings at Minot Air Force Base
(one wing is assigned to each NAF). We also examined potential efficiencies and
security advantages derived from alternative organizational structures at Minot AFB.

Results

We determined that AFGSC took a proactive role with regard to enhancing the Air
Force’s nuclear enterprise focus prior to initiation of our assessment. Resultantly, the Air
Force has reduced manning at the NAFs while increasing their relevance. We identified
manpower and command and control improvements that could potentially be utilized at
Minot AFB to further enhance efficiency and effectiveness. Comparable efficiencies will
likely be realized via initiatives undertaken by AFGSC prior to commencement of our
review.

Background

AFGSC was activated on August 7, 2009, in conjunction with an overarching effort to
reinvigorate the nuclear enterprise after the inadvertent transfer of nuclear weapons by
means of a B-52 aircraft in 2007, and an accidental shipment of nuclear weapon
components to Taiwan discovered in 2008. AFGSC’s mission is to develop and provide
combat-ready forces for nuclear deterrence and global strike operations. AFGSC is
responsible for overseeing three intercontinental ballistic missile wings, two B-52 wings,
and one B-2 wing. On December 1, 2009, AFGSC assumed responsibility for the
service’s Minuteman III missile wings from Air Force Space Command. On February 1,
2010, nuclear-capable bombers from Air Combat Command were placed under AFGSC.
At present, five air force bases (AFB) are assigned to AFGSC: Barksdale AFB, Minot
AFB, Whiteman AFB, Francis E. Warren AFB, and Malmstrom AFB. Figure 1 on the
following page depicts AFGSC’s organizational structure.




1
 As outlined in AFI 38-101, a Numbered Air Force is a level of command directly under a Major
Command (MAJCOM) and assigned subordinate units such as wings, squadrons, and groups. NAFs
provide operational leadership and supervision.

                                                 1
         Figure 1. Air Force Global Strike Command Organizational Structure




AFGSC and NAF Evolution

Subsequent to nuclear incidents in 2007 and 2008, AFGSC and its two NAFs have
streamlined responsibilities and increased effectiveness. The standup of AFGSC, which
focuses solely on the missions of 8 AF and 20 AF, has provided the Air Force with
support required to proactively improve the nuclear enterprise. Consequently, the wings
assigned to AFGSC have benefited from increased support at both the NAF and major
command levels despite significant staffing reductions.

Initiatives undertaken by NAFs since 2007 have enhanced their relevance. Examples
include assuming intelligence and personnel assistance functions in an effort to reverse
the decline of the nuclear enterprise. 20 AF increased its security force staff, and
assigned intelligence officers to intercontinental ballistic missile (ICBM) wings.
Personnel specialists at both NAFs work closely with commanders to improve processes
utilized to fill key nuclear billets, and engage in long-term planning designed to ensure
adequate expertise will be available in the future.

AFGSC and NAF Division of Responsibilities. As entities that report directly to the
Major Command, NAFs focus on ensuring readiness of assigned forces. 20 AF is
responsible for operating and maintaining ICBMs, while 8 AF controls nuclear-capable
bombers. NAFs manage Uniform Code of Military Justice actions, mentor wing
commanders and their staffs, address personnel and manning issues, and prepare
performance reports and promotion recommendations. AFGSC also relies on the NAFs
to manage certain technical oversight functions in conjunction with the wings. Duties
include standardization, evaluation, exercise planning and analysis, technical order
support, and long-term modification planning.

AFGSC retains control over certain functional areas, such as communications, analysis,
and civil engineering. To clarify responsibilities, the AFGSC Director of Staff has issued
explicit directions as to which actions should be staffed through the NAFs, and
circumstances in which direct interaction between AFGSC and the wings is appropriate.

To ensure senior staff at AFGSC is adequately engaged in issues of relevance to the
nuclear enterprise, AFGSC conducts periodic meetings, to include Status of Resources
and Training System (SORTS) reviews, inspection deficiency reviews, and weapon
system team conferences. B-52, B-2 and Minuteman III weapons teams coordinate on a
regular basis with AFGSC and applicable NAF and wing leadership (in person or via
video teleconference). AFGSC ensures that wing representatives are provided with

                                            2
ample opportunities to raise concerns. AFGSC subsequently addresses concerns in
conjunction with the appropriate NAF. At Minot AFB, personnel believe that reporting
to a single major command enhances communication between wings, and alleviates
perceptions regarding competing priorities of Air Combat Command and Air Force Space
Command.

AFGSC and NAF Optimization. The DoD Inspector General assessment team
reviewed the organize, train, and equip missions for AFGSC and both NAFs to identify
potential duplication of effort. The team noted that responsibilities common to both
NAFs are typically assumed by AFGSC. The team also noted that AFGSC previously
determined that combining NAFs could potentially allow the command to better utilize
personnel and eliminate 42 billets (in addition to previously directed reductions);
however, Air Force senior leadership opted to retain the organizational structure, but still
elected to eliminate 42 billets. Downsizing will be completed in FY 2015. Concurrently,
AFGSC is downsizing from a maximum authorized strength of 1079 personnel to 975 by
the first quarter of FY 2013. We noted several instances whereby the Air Force’s
reduction mitigation strategy involves transferring responsibilities between the NAFs and
AFGSC. Communication and coordination between AFGSC and NAFs will be critical to
the success of this endeavor. Inadequate communication regarding future expectations
could potentially result in a diminished ability on the part of AFGSC and/or the NAFs to
meet their responsibilities.

Another concern of the assessment team involves the extent to which 8AF utilizes staff to
augment other organizations, many of which are in the process of downsizing. The 608
Air and Space Operations Center (608 AOC) will reduce from 169 personnel in FY 2011
to 127 by FY 2015 (25% reduction). During the same timeframe, the 608th Air
Communications Squadron will eliminate 24 billets (27% reduction), and the
headquarters staff (A1-A9 and the Commander’s special staff) will decrease from 174
personnel to 94 (46% reduction). This will result in a staffing level below the 99 person
threshold established for non-Combatant Command (COCOM) supporting NAFs, as
referenced in Air Force Instruction 38-101 (since 8 AF and 20 AF are designated as
USSTRACOM component NAFs, they are permitted to employ larger staffs so as to
ensure they remain capable of performing strategic, operational and tactical level
functions). Given the combined impact of manpower reductions and a continued need to
deploy staff to support contingencies, the NAFs must vigilantly manage resources in a
manner that ensures they remain capable of meeting critical nuclear responsibilities.

Organizational Structure Supporting USSTRATCOM

Commanders of 20 AF and 8 AF report directly to the Commander, AFGSC, who in turn
reports to USSTRATCOM; however, USSTRATCOM has also designated 8 AF and 20
AF commanders as nuclear task force commanders for the bomber and missile legs of the
triad. A total of six nuclear task forces manage all of the aircraft, ICBMs and submarines
associated with USSTRATCOM’s nuclear mission. While serving as nuclear task force
commanders, 20 AF and 8 AF commanders report directly to USSTRATCOM.

Presidential direction is transmitted directly to nuclear forces, bypassing task force
headquarters. Previously, missile and aircraft crews placed on alert were the only wing
personnel that reported to USSTRATCOM; however, USSTRATCOM has
operationalized the task forces, thus making them more relevant. Currently, task forces
are tasked with supporting nuclear weapon system daily readiness and functionality.
USSTRATCOM created operational order Global Citadel, which codifies task force
responsibilities. Task force commanders utilize direction provided via Global Citadel to
produce specific operational orders. These operational orders are distinct from traditional
                                             3
NAF instructions. Additionally, USSTRATCOM is considering force allocation
modifications that will potentially result in additional personnel being assigned to support
its nuclear mission, and prevent mission essential forces from being deployed in support
of another COCOM’s mission without USSTRATCOM coordination and acceptance of
risk.

20 AF Commander Appointed Task Force 214 Commander by USSTRATCOM.
The 20 AF Commander has been appointed by the Commander, USSTRATCOM, to
serve as Task Force 214 (TF-214) Commander. Whereas 20 AF’s primary mission is to
support the AFGSC mission to organize, train, and equip, TF-214 is responsible for
tactical management of ICBM forces. TF-214 reports directly to USSTRATCOM, and
executes tactical control over assigned forces via a TF-214 Operations Order. Tasks
include warhead management, targeting validation, and missile alert balance between the
three bases. These tasks are accomplished by the same personnel who execute 20 AF
functions.

8 AF Commander Appointed Tasks by USSTRATCOM.
The 8 AF Commander has been appointed by the Commander, USSTRATCOM, to serve
as Joint Force Component Commander – Global Strike; Task Force 204 Commander; and
Joint Forces Air Component Commander. Responsibilities of these three entities include
deliberate and crisis planning of both nuclear and conventional missions for bomber and
reconnaissance aircraft. Responsibilities are divided among these three distinct
organizations. Figure 2 depicts the reporting structure for 8 AF to both AFGSC and
USSTRATCOM.

            Figure 2. Multiple Commands for Commander, 8th Air Force




       Joint Force Component Commander – Global Strike (JFCC-GS). JFCC-GS
       performs traditional USSTRATCOM J3-type roles related to deliberate planning
       for nuclear options, as well as airborne conventional options. Planning
       responsibilities include all preplanned nuclear options for Navy and Air Force
       assets. JFCC-GS staff resides at USSTRATCOM headquarters at Offutt AFB.

                                             4
        Day-to-day management is the responsibility of a Navy Rear Admiral, designated
        as the deputy commander for JFCC-GS.

        Task Force 204 (TF-204). Core functions of TF-204 include force generation,
        mission validation, force and weapons tracking, and stockpile monitoring for the
        nuclear related generation of AFGSC assets and Air Combat Command
        reconnaissance aircraft that support nuclear operations. The 8 AF Commander
        has designated his A3 (operations) Director as the TF-204 Director, ensuring
        close coordination between 8 AF staff and TF-204 staff. Fifty four of the 68
        billets assigned to the 608 Strategic Operations Squadron support TF-204’s
        mission. The 608 Strategic Operations Squadron also reports to AFGSC through
        8 AF when executing its mission to organize, train, and equip the task force.

        Joint Forces Air Component Commander – (JFACC). JFACC is the most
        recent duty title assigned the 8 AF commander. JFACC commands the 608 AOC,
        which has been in existence since 1994. † The 608 AOC is a separate organization
        within 8 AF that provides air support for geographic Combatant Commands on
        behalf of USSTRATCOM. It also monitors air assets assigned to
        USSTRATCOM, and is responsible for short term or “crisis action” planning for
        USSTRATCOM conventional global strike missions. Although the 608 AOC
        does not engage in daily combat sorties, it executes its responsibilities on a daily
        basis, ensuring a highly proficient staff is available to participate in contingency
        missions. In addition to planning and executing conventional bomber operations
        (e.g., recent actions in Libya), JFACC monitors and controls exercises, and
        engages in humanitarian relief operations (e.g., the Haiti earthquake, and the
        British Petroleum oil spill in the Gulf of Mexico).

Co-location of Task Force 204 with the 608 Air and Space Operations Center.
USSTRATCOM has identified direct linkages and dependencies between TF-204 and the
608 AOC. Accordingly, operation centers for TF-204 and 608 AOC will be relocated to
a common site. This will enable TF-204 and 608 AOC to seamlessly execute any
USSTRATCOM Global Strike requirements, and to provide a common air picture to
USSTRATCOM.

Minot AFB Organizational Structure Options for Security.

Minot AFB is unique in that it hosts two separate wings. Our review noted that the 5th
Bomb Wing (5 BW) is the host wing and provides base security, but the preponderance
of security forces belong to the 91st Missile Wing (91 MW), a tenant unit at Minot AFB.
91 MW is responsible for the protection of ICBMs located throughout the missile
complex. We believe this unique structure can negatively impact unity of command and
results in structural inefficiencies. In a crisis situation, one of the two separate backup
forces would be utilized. Separate security command centers and wing crisis actions
centers may impede an efficient coordinated response if a crisis involves responsibilities
belonging to both wings.

AFGSC Staff Proposal to Reorganize. A series of organizational changes that occurred
subsequent to disestablishment of Strategic Air Command have resulted in bifurcated
security force. One force supports on-base operations, and a second (much larger) force
is responsible for security related to the off-base missile field. Citing a desire to obtain

†
 Originally activated as the 608th Air Operations Group on Jan 1, 1994, it was re-designated the 608th Air
and Space Operations Center on June 3, 2008.
                                                    5
unity of command for security forces at Minot AFB, AFGSC staff developed a decision
brief that examined options that could be utilized to enhance unity. Potential options
included: assigning security functions to the bomb wing; placing security under the
missile wing as the tenant; placing security under the missile wing as the host for the
base; or retaining the current the organizational structure, and creating a memorandum of
understanding designed to eliminate certain redundancies.

The AFGSC commander opted to retain the current organizational structure, but elected
to co-locate security force command centers and to establish a memorandum of
understanding designed to enhance unity and reduce redundancy. A particularly
noteworthy efficiency enhancement will be achieved via elimination of a redundant
backup force. This reform will assist in alleviating a significant security force shortfall in
the missile field (5 BW utilizes a 15 person backup force that is available 24 hours a day;
and 91 MW utilizes a Tactical Response Force that is comparable in size). Noteworthy is
the fact that a single task force performs both on and off base security functions at
Francis E. Warren AFB and Malmstrom AFB.

Additionally, the AFGSC commander has reportedly decided to re-explore the possibility
of designating 91 MW as the host wing within two to three years, which would allow
Minot to recover from extensive flooding that occurred in summer 2011. In addition to
the turmoil caused by the flood, all AFGSC wings recently absorbed munitions
squadrons, which were previously tenant units assigned to Air Force Materiel Command.
Leadership is making a concerted effort to stabilize the organizational structure prior to
exploring any additional changes.

Wing Crisis Action Management Centers. Currently, each wing at Minot AFB utilizes
its own operations center. The 5 BW Commander activates his Crisis Action Team
(co-located with the 5 BW command post) when specific installation-based incidents
occur that require oversight. The 91 MW Commander utilizes the Missile Reaction Cell
at 91 MW headquarters to oversee mission operations involving the missile field. Both
wings are supported by the 5 BW Mission Support Group and Medical Group. We
believe that utilization of a common crisis action center would provide a unified
operating perspective during a crisis, and would enhance communication among key
personnel.

Security Force Command and Control Locations. Each wing also utilizes its own
security control facility. The 5 BW Central Security Control is adjacent to the former
Missile Security Control room in the Security Forces Center, which is now designated as
the Missile Security Control alternate location. Missile Security Control was relocated to
its current site in an attempt to enhance mission effectiveness by co-locating with the
Missile Maintenance Operations Center; however, we believe that the ability of base
security forces to respond to incidents would be heightened if forces were assigned to a
single location, as is the practice at other missile wings. There are obvious advantages
associated with co-locating the Missile Maintenance Operations Center and Missile
Security Control; however, we suggest a suitable location be found to accommodate
Central Security Control, which oversees the weapons storage area and airfield security,
as well as the Missile Maintenance Operations Center and Missile Security Control
center. Failing to co-locate all three of these centers may negate some of the benefits that
could potentially be derived via the previously mentioned Memorandum of
Understanding, to include the prospective ability to dispatch a single backup force in an
efficient manner.



                                              6
Other Matters of Interest - Key Nuclear Billets

The Air Force has designated certain positions as key nuclear billets that must be filled.
Personnel representatives at the offices we visited cited concerns regarding difficulties
associated with filling these billets. Some opined that Air Force Personnel Center
personnel fail to ensure candidates who possess required nuclear expertise are recruited to
fill the billets in their haste to fill the positions. In some instances, billets were reportedly
filled by persons lacking any semblance of nuclear expertise. In order to ensure key
nuclear billets are filled by qualified personnel, special experience identifiers have been
created and attached to particular billets to define job requirements. Personnel records
should be consistently populated with these special identifiers as personnel complete
relevant assignments. Some individuals are concerned that the Air Force Personnel
Center is not utilizing the identifiers. This perception discourages wings from entering
special experience identifiers into personnel records. In our opinion, action should be
taken to ensure implementation of related procedures so as to ensure personnel records
are properly notated, and best qualified individuals are selected to fill key nuclear billets.
AFGSC and both NAFs indicated they are coordinating with the wings so as to ensure
required information is made available to the Air Force Personnel Center.

Conclusion

Our assessment team determined that both 20 AF and 8 AF have matured significantly
since 2007. The standup of AFGSC has apparently resulted in more engaged, proactive
institutions. Functions performed by NAFs complement MAJCOM functions, and the
MAJCOM has assumed responsibility for potentially duplicative tasks. Consolidating
NAFs subsequent to completion of programmed reductions (to include the ongoing NAF
optimization plan) is unlikely to result in additional labor efficiencies, and could
negatively impact effectiveness if the consolidated organization was unable to adequately
identify required expertise.

In order to achieve success in the nuclear arena, USSTRATCOM must rely upon
informed experts to provide critical guidance. Currently, NAF commanders (via their
role as task force commanders) effectively fill that role. The current organizational
structure ensures that general officers remain capable of focusing on each leg of the
organizational triad, versus individual functional areas. USSTRATCOM has also
modified the manner in which it utilizes its task forces by issuing formal operational
orders, and utilizing existing assets in more efficient manners. At present,
USSTRATCOM is able to rely upon task forces and wings to support critical functions
and to proactively manage the force, which is critical given the number of ICBM
warheads impacted by the New Strategic Arms Reduction Treaty.

As mentioned above, we are of the opinion certain efficiencies can potentially be gained
through relatively minor structural modifications and the refinement of certain
administrative processes and procedures; however, we recognize the fact that the AFGSC
Commander plans to implement a memorandum of agreement at Minot AFB that
accomplishes closely related objectives, to include consolidation of security command
centers and establishment of joint training regimens. Implementation of the
memorandum of understanding will help ensure a unified response transpires in the event
of a serious security incident. Additionally, AFGSC intends to re-examine the possibility
of transferring host wing responsibilities to the missile wing in two to three years. It is
our opinion that merging security forces into a single organization that reports to Missile
Wing leadership could further enhance efficiency and effectiveness.

                                               7
